<html>
<title> - [H.A.S.C. No. 112-97]USE OF AFGHAN NATIONALS TO PROVIDE SECURITY TO U.S. FORCES, IN LIGHT OF THE ATTACK ON U.S. PERSONNEL AT FORWARD OPERATING BASE FRONTENAC, AFGHANISTAN, IN MARCH 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-97]

 
                   USE OF AFGHAN NATIONALS TO PROVIDE
                  SECURITY TO U.S. FORCES, IN LIGHT OF
                    THE ATTACK ON U.S. PERSONNEL AT
                   FORWARD OPERATING BASE FRONTENAC,
                       AFGHANISTAN, IN MARCH 2011

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 1, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
72-935                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 John Chapla, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, February 1, 2012, Use of Afghan Nationals To Provide 
  Security to U.S. Forces, in Light of the Attack on U.S. 
  Personnel at Forward Operating Base Frontenac, Afghanistan, in 
  March 2011.....................................................     1

Appendix:

Wednesday, February 1, 2012......................................    33
                              ----------                              

                      WEDNESDAY, FEBRUARY 1, 2012
USE OF AFGHAN NATIONALS TO PROVIDE SECURITY TO U.S. FORCES, IN LIGHT OF 
   THE ATTACK ON U.S. PERSONNEL AT FORWARD OPERATING BASE FRONTENAC, 
                       AFGHANISTAN, IN MARCH 2011
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Dahl, BG Kenneth R., USA, Deputy Commanding General for Support, 
  10th Mountain Division (LI), Fort Drum, New York...............     5
Motsek, Gary J., Deputy Assistant Secretary of Defense for 
  Program Support Acquisition, Technology and Logistics, U.S. 
  Department of Defense..........................................     7
Sedney, David S., Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan and Central Asia, U.S. Department of 
  Defense........................................................     8
Townsend, BG Stephen J., USA, Director, Pakistan-Afghanistan 
  Coordination Cell, Joint Chiefs of Staff.......................     6

                                APPENDIX

Prepared Statements:

    Dahl, BG Kenneth R., joint with BG Stephen J. Townsend, Gary 
      J. Motsek, and David S. Sedney.............................    40
    McKeon, Hon. Howard P. ``Buck''..............................    37
    Smith, Hon. Adam.............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    53
    Mr. Johnson..................................................    53
    Mr. Scott....................................................    53

Questions Submitted by Members Post Hearing:

    Mr. Kissell..................................................    58
    Mr. McKeon...................................................    57
    Mr. Ruppersberger............................................    60
USE OF AFGHAN NATIONALS TO PROVIDE SECURITY TO U.S. FORCES, IN LIGHT OF 
   THE ATTACK ON U.S. PERSONNEL AT FORWARD OPERATING BASE FRONTENAC, 
                       AFGHANISTAN, IN MARCH 2011

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 1, 2012.
    The committee met, pursuant to call, at 10:05 a.m. in room 
2218, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    In September last year, this committee explored the issue 
of attacks by members of the Afghan National Security Forces on 
U.S. and coalition personnel. The witnesses concluded that the 
DOD [Department of Defense] had mitigated the risk about to the 
degree we can in these few occasions when such attacks have 
occurred.
    Since then, the committee staff has continued to look into 
the factors behind attacks by Afghan nationals on coalition 
forces, including attacks conducted by Afghans hired by private 
security contractors to protect U.S. bases.
    The staff has used the attack in March 2011 at Forward 
Operating Base Frontenac as a case study to better understand 
the range of issues. In that attack, two soldiers died, 
including my constituent, Specialist Rudy Acosta, and four were 
wounded.
    I would like to note that Specialist Acosta's father and 
mother, Dante and Carolyn Acosta, are with us here today.
    Private security contractors are used in Afghanistan to 
provide personal protective services for Department of State 
personnel and dignitaries, to guard construction sites, to 
ensure safe movement for other private companies doing business 
in Afghanistan, for guarding supply convoys, and to augment 
coalition forces by providing base security.
    In the case of base security, the Commander in Chief is 
responsible for determining the size of the U.S. force deployed 
to Afghanistan and other places around the world, the missions 
that the force will undertake, and the necessary contractor 
support.
    For different reasons, both President Bush and President 
Obama have chosen to limit the size of the U.S. force and to 
use private security contractors to enhance base security.
    In contrast, it is Congress' role, and the purpose of 
today's hearing, to assess the advisability of these policies 
and whether the administration needs to change its approach.
    Complicating matters further, President Karzai has dictated 
that only Afghan nationals may be certified for employment as 
private security guards, and has not permitted U.S. citizen 
contractors.
    Karzai has also ordered the private security contractors to 
be disbanded. The Afghan Ministry of Interior will assume full 
responsibility for providing the Afghan Personal Protection 
Force, a new organization that from March 2012 onward, with a 
few exceptions, will replace private security contractors.
    The APPF [Afghan Personal Protection Force] will be 
available on a fee-for-service basis to coalition forces to 
perform the services that I just described.
    According to the DOD, the Afghan Ministry of Interior, in 
conjunction with U.S. and coalition forces, will use a vetting 
and screening process that will be the same for both the Afghan 
National Security Forces and the APPF.
    I recognize that it would be virtually impossible to 
establish a foolproof screening process. Our own national 
security screening system is not foolproof.
    Yet we must recognize that the existing processes failed to 
identify 42 attackers from 2007 to 2011. Thirty-nine of those 
attacks were by members of the Afghan National Security Force 
and three by contractor employees.
    Though less than 1 percent of Afghan forces and security 
guards have attacked coalition forces, this is 42 attacks too 
many, and the new process must do better.
    Another concern is that the screening and vetting has been 
tragically weak in picking up signs of threats after the Afghan 
joined either the Afghan National Security Force or a private 
security contractor. DOD data indicates that at least 60 
percent of all the attacks appear to be motivated by personal 
matters arising after the hiring.
    So it was with the attacker at FOB [Forward Operating Base] 
Frontenac. In July 2010, at another forward operating base, his 
employer, Tundra Security, fired him for allegedly making 
statements about killing U.S. personnel and recommended that he 
not be rehired.
    The contractor's chain of command did not enter that 
recommendation into the attacker's file, and the attacker was 
rehired by the same contractor in 2011, just before the attack 
at Frontenac.
    Moreover, because a parallel U.S. investigation of the 2010 
allegations concluded that the statements could not be 
substantiated, the U.S. official at the base decided not to 
enter the allegations about the attacker in the U.S. watchlist 
system.
    Adding to my concern about the vetting system not being 
focused in the right place, a U.S. rescreening of all Afghan 
security guards at Frontenac immediately after the attack 
resulted in several being dismissed as unworthy of employment.
    Finally, I am concerned about the Department's September 
statement that its efforts have mitigated the risk about to the 
degree we can. At the time, the committee was not aware that 
the frequency of these attacks had dramatically increased in 
2010 and 2011. In fact, 75 percent of all attacks have occurred 
in the last 2 years.
    The Department attributes the increase with the growth of 
U.S. forces in Afghanistan. But we need to understand the 
contributing factors better, so that more effective steps can 
be taken to further mitigate attacks on U.S. and coalition 
personnel.
    Before introducing our witnesses, I would like to read Mr. 
Acosta's statement into the record. This was written on 
Wednesday, February 1st, 2012.
    ``Last month, we received the U.S. Army A.R. 15-6 report 
regarding the March 19th, 2011 attack on U.S. Army FOB 
Frontenac, Kandahar Province, Afghanistan, which resulted in 
the death of our son, Specialist Rudy A. Acosta and Corporal 
Donald Mickler, and the wounding of four other soldiers.
    The report highlighted the fact that although the U.S. 
government allows private security contractors to provide base 
security in hostile lands, basic levels of safeguards were 
either not implemented or not followed. This allowed an Afghan 
national, who made prior threats against U.S. troops, to be 
reemployed by PSC [Private Security Contractor] Tundra Security 
and carry out a lethal attack.
    Our family and the Nation believe that this practice should 
be ended and rules be put in place so that only U.S. troops 
guard U.S. troops on these posts. However, as long as this 
practice continues, these PSCs, like Tundra, must follow rules 
put in place to safeguard our troops and there must be 
consequences if they fail to do so.
    We are disappointed that we were not allowed to testify in 
person before the House Armed Services Committee on this 
critical issue.''
    I would also inform members that some of the material 
provided to the committee is classified. The classified items 
are noted in the hearing memo.
    If any member wishes to discuss classified matters after 
the hearing, our witnesses have agreed to make themselves 
available in 2337 immediately following this hearing. If any 
member wishes to go to 2337 for this classified material, 
please let the committee staff know before our hearing ends 
today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 37.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to thank the chairman for having this hearing, and 
most importantly for his attention to this issue. I know this 
has been a huge priority for you and the majority staff and for 
this full committee. And I appreciate all the work on it 
because it is a critically important issue.
    As you look at the report and see the disturbing number of 
attacks committed by ANSF [Afghan National Security Forces] and 
Afghan contractors against our troops, it is indeed a very 
serious and troubling situation. Our troops are in Afghanistan 
to protect the Afghan people and to protect their government.
    To be turned on by the very people they are fighting with 
and for undermines the entire operation, and places our troops 
at an unacceptable level of risk.
    And I think there has been a thorough study of this, but I 
think it is also clear that we can do more.
    More not just in the initial screening process determining 
who is going to be in proximity to our troops, armed and in a 
position to cause harm, but even after they are hired, after 
they have gone through the screening and vetting situation, to 
continue to monitor for problems and err on the side of 
interceding sooner, rather than later; that if we are not sure 
if someone is 100 percent with us and safe, then need to go 
find them a different job without a gun so close in proximity 
to our troops and soldiers that places them at risk.
    Clearly, there is more screening that could be done and 
more protection that can be done as we learn more about what 
motivated these attacks, and hopefully learn and see where 
those attacks come from.
    Certainly, some of them have been infiltration from the 
Taliban, and we need to make sure we do a better job of 
screening initially. But a lot of them simply come down to 
personal matters that arise during the course of their service, 
but these are things that can be seen by those who are 
observant.
    We need to keep a much keener eye for Afghan National 
Security Forces and Afghan contractors who may become a 
problem, and intervene, find ways to protect our troops and put 
that ANSF soldier who may be a problem in a place where they 
don't have the proximity to do this kind of harm.
    So, I look forward to the testimony, to hear more about 
what we can do to better protect our troops from these kinds of 
attacks. And again, I want to thank Mr. McKeon especially for 
his attention to this issue and for the work.
    It is a critically important issue to protect our troops 
and a major problem right now in Afghanistan.
    I look forward to working with our witnesses and the 
committee to find solutions to better protect our troops in 
Afghanistan.
    And with that, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 39.]
    The Chairman. Thank you.
    Our witnesses today are Mr. David S. Sedney, Deputy 
Assistant Secretary of Defense for Afghanistan, Pakistan, and 
Central Asia, from the Department of Defense; and Mr. Gary J. 
Motsek, Deputy Assistant Secretary of Defense for Program 
Support, Acquisition, Technology, and Logistics from the 
Department of Defense; Brigadier General Stephen Townsend, U.S. 
Army, Director, Pakistan-Afghanistan Coordination Cell, Joint 
Chiefs of Staff; Brigadier General Kenneth Dahl, U.S. Army, 
Deputy Commanding General for Support, 10th Mountain Division, 
Fort Drum, New York.
    General Dahl, since you directed the A.R. 15-6 
investigation into the attack at FOB Frontenac, we would like 
you to begin, and then we will just move down the row.
    Thank you.

STATEMENT OF BG KENNETH R. DAHL, USA, DEPUTY COMMANDING GENERAL 
 FOR SUPPORT, 10TH MOUNTAIN DIVISION (LI), FORT DRUM, NEW YORK

    General Dahl. Chairman McKeon, Ranking Member Smith, and 
distinguished members of the committee, it is an honor to 
appear before you.
    I welcome the opportunity to contribute to your 
understanding of the events that took place at FOB Frontenac 
and I appreciate your oversight of operations in general.
    I would like to begin by once again expressing my 
condolences to the families of the brave soldiers that we lost, 
and to honor the sacrifices of all service men and women and 
their families from whom we continue to ask so much.
    I am aware that you have previously been provided a full, 
un-redacted version of the Army investigation conducted under 
Army Regulation 15-6. I am confident that I will be able to 
cover the key findings and recommendations of that 
investigation in this open session.
    While serving in Regional Command South in Afghanistan, I 
appointed an officer to investigate the circumstances of the 19 
March 2011 attack on FOB Frontenac. In addition to the standard 
scope of an investigation for any incident resulting in the 
death of a soldier, we directed this investigation to also 
specifically consider the role of the security contractor, in 
this case Tundra, the vetting process to hire local Afghans, 
and to make recommendations to improve our processes and 
prevent similar incidents in the future.
    The challenges identified in the investigation are complex 
and the implementation of those recommendations is deliberate 
and is ongoing. The investigation identified the assailant, a 
Tundra employee, as an insurgent who infiltrated the ranks of 
Tundra in order to execute an internal attack.
    The attack resulted in the tragic deaths of two great 
soldiers and the injury of four others. Due to the quick 
actions of two well-trained soldiers and the excellent response 
of medical personnel on the scene, the unit did mitigate the 
impact of this attack and prevented greater casualties.
    A key finding of the investigation was that the assailant 
had indeed been fired months prior for making unsubstantiated 
threats against U.S. soldiers at a FOB in a different location. 
Given that the threats were unsubstantiated, neither Tundra nor 
the command annotated those threats in an official record, 
which, had they been recorded may have prevented the assailant 
from being rehired.
    Additionally, the investigation revealed that the command 
found the orders and policies governing the personal security 
contractor--the vetting and hiring of those, to be vague and 
confusing. The recommendations from this investigation focused 
on clarifying pertinent guidance, creating a comprehensive 
background file for all local Afghan contract hires, and 
sharing the findings at all levels of the formation and 
throughout the chain of command to increase awareness and 
prevent similar incidents in the future.
    I will point out that the investigation also made specific 
recommendations to recognize the courage and quick action of 
those soldiers who responded to the attack.
    The attack on FOB Frontenac was a tragic event. All 
commanders take very seriously their responsibility to protect 
our soldiers.
    We have taken steps to correct the errors in process and 
the confusing policies identified in the investigation. But 
sadly, in this case, these corrections would likely not have 
altered the outcome.
    Nonetheless, it is our duty to explore every avenue to 
protect our soldiers. And we welcome your leadership and the 
oversight of this committee, which causes us to examine 
ourselves and find ways to improve our operations.
    Thank you.
    [The joint prepared statement of General Dahl, General 
Townsend, Mr. Motsek, and Mr. Sedney can be found in the 
Appendix on page 40.]
    The Chairman. General Townsend.

 STATEMENT OF BG STEPHEN J. TOWNSEND, USA, DIRECTOR, PAKISTAN-
      AFGHANISTAN COORDINATION CELL, JOINT CHIEFS OF STAFF

    General Townsend. Chairman McKeon, Ranking Member Smith, 
and members of the committee, thank you for this opportunity to 
talk to you today about our efforts to assist the Afghan 
National Security Forces in ensuring their ranks are free from 
those who might seek to harm our troops, who are fighting 
alongside them to build an Afghanistan that will never again be 
a safe haven for terrorists.
    First, let me add my personal condolences to General Dahl's 
for the family of the troops who lost their lives at FOB 
Frontenac, like the Acosta family who are here today.
    I would like to thank them publicly for their son's service 
and their family's sacrifice.
    And to the families of all our troops, both U.S. and 
allies, who have been killed or injured in other unfortunate 
attacks like this one during our mission in Afghanistan.
    Our bottom line up front is the protection of service 
members deployed in harm's way against any threat remains one 
of our highest priorities for our commanders and leaders, both 
here in Washington and in the field. Although there is no such 
thing as perfect protection, especially in Afghanistan, we know 
we must continue to develop effective ways to combat the 
insider threat to our service members.
    To that end, we appreciate this committee's support in 
exploring the best methods to provide security for Americans 
and our allies doing the Nation's work in Afghanistan.
    As this committee is well aware, our efforts in Afghanistan 
have not been without great sacrifice. We still face a very 
determined enemy who uses asymmetric methods to harm our 
troops, including insider attacks.
    A major focus of our military campaign is developing an 
increasingly self-reliant Afghan National Security Force that 
can lead the fight in the near future.
    We are working closely with Afghan leaders to reduce 
potential insider threats through a layered system that 
includes screening and vetting before an Afghan enters service, 
cultural training for Afghan service members, and growing an 
Afghan counterintelligence capability so they can detect 
potential insider threats before they come to fruition.
    Now, for our part, we are reinforcing the importance of 
cultural and language training prior to deployment for our 
forces, emphasizing the importance of our own conduct each day 
in reducing unnecessary frictions with our partners, reviewing 
our own counterintelligence efforts in theater, and finally, 
reminding our leaders and soldiers they must always have their 
own protection foremost in their minds and ultimately provide 
their own security.
    One important part of this approach involves an eight-step 
vetting process that uses both Afghan cultural practices, such 
as recommendations from village elders, as well as modern 
technology in the form of biometrics to help screen and vet 
Afghans before they enter service.
    Looking ahead to the transition of private security 
contractors to the Afghan Public Protection Force, we will see 
Afghan security guards undergoing a vetting process like this 
one.
    In these brief remarks, I have highlighted some of the 
efforts to address potential insider threats. As our campaign 
increasingly transition security lead to the Afghans, and as 
our role shifts from leading combat operations to a primary 
focus on security assistance, our military personnel will be 
increasingly employed as embedded trainers and advisers with 
Afghan units.
    While we can't completely eliminate the potential for 
insider threats, we can greatly reduce them by using a 
multilayered approach that includes smart vetting procedures, 
cultural training, leader and soldier force protection 
awareness, and counterintelligence efforts.
    Again, thank you for your continuous support to our men and 
women in uniform.
    The Chairman. Thank you.
    Mr. Motsek.

  STATEMENT OF GARY J. MOTSEK, DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR PROGRAM SUPPORT ACQUISITION, TECHNOLOGY AND 
             LOGISTICS, U.S. DEPARTMENT OF DEFENSE

    Mr. Motsek. Chairman McKeon, Ranking Member Smith, and 
members of the committee, thank you again for the opportunity 
to appear before you to discuss the use of Afghan nationals to 
provide security U.S. forces in light of the attack on U.S. 
personnel at Forward Operating Base Frontenac.
    I, too, would also like to extend my condolences to the 
families of our soldiers, and by extension, to all family 
members who have lost their lives and loved ones. Their deaths 
are all tragic.
    Generally speaking, contractors perform well and provide 
essential support to the conduct of our operations within 
Afghanistan. Without them, under the present conditions there, 
we would have to divert approximately 20,000 troops from 
essential combat tasks to perform noncombat-related security 
functions. And our allies in Afghanistan are in a similar 
situation.
    In other words, we would have to move 30 percent of our 
force, whose primary mission is to offensively engage the 
enemies of our Nation, and are equipped and trained for that 
mission to provide basic security services oriented, primarily, 
frankly, against criminal elements.
    The investigation has clearly shown that although our basic 
policies are sound, there were weaknesses in execution, and we 
will continue to address these.
    DOD has a broad range of management policies and 
operational procedures to effect, provide, and achieve more 
effective oversight and coordination of contractor operations.
    Our oversight and responsibilities aren't static, but 
constantly evolve as we apply insights from lessons learned.
    For example, regarding PSCs--and we when we first appeared 
before this committee regarding the oversight of PSCs, we have 
gone from a basic memorandum of agreement and the interagency 
process to a formal DOD instruction.
    We are now in the code of Federal regulations. And we are 
about to finalize an American Standards Institute standard on 
management and quality. And we will trust that will yield 
eventually an international standard that we can adopt 
internationally.
    DOD policy requires all contractor personnel, regardless of 
nationality, to comply with DOD regulations as well as the 
applicable laws of the United States and the host country. 
Biometrics is now an integral part of that oversight and 
vetting process.
    Incidents that involve local nationals attacking U.S. 
forces or allies are unacceptable, and we must do all we can to 
eliminate or minimize those risks.
    Frankly, as the chairman and ranking member have said, I 
don't believe we can actually fully eliminate them, but we must 
do everything in our power to minimize them. Because our 
national objectives in Afghanistan include that our forces work 
side-by-side with those of the host nation.
    I assure you we will continue to assess our procedures and 
operations to minimize those risks, and improve where we can 
find and identify shortfalls. There is no end state to the way 
we review and implement our processes.
    Again, the incident at FOB Frontenac was an obvious 
tragedy, and no investigation or hearing can minimize or 
relieve that loss.
    Hopefully, this testimony provides a documentary baseline 
of the topics we were asked to address during this hearing. And 
as my fellow witnesses, we are prepared to address your 
questions.
    Thank you.
    The Chairman. Thank you.
    Mr. Sedney.

  STATEMENT OF DAVID S. SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Sedney. Thank you, Mr. Chairman, Ranking Member Smith, 
distinguished members of the committee. And thank you for the 
opportunity to testify today.
    I particularly thank you for your continued support for our 
troops.
    It is important in this hearing, and as we discuss 
Afghanistan, that we focus on why the United States is in 
Afghanistan. We are there to ensure that Afghanistan is never 
again used by our enemies to attack the United States.
    Our core goal is to disrupt, dismantle, and defeat Al 
Qaeda, and to prevent Afghanistan from again becoming a safe 
haven for such attacks.
    This is a mission that I know our soldiers, sailors, 
airmen, and marines understand. Their efforts and sacrifices 
allow the rest of us to enjoy the benefits of freedom that our 
military is dedicated to uphold.
    The conflict in Afghanistan has and remains a tough war in 
very difficult circumstances. However, our military has proven 
immensely adaptable as it has found ways to address those 
challenges, particularly in the past 3 years.
    The changes in the way we fight and partner with the 
Afghans is key to the success we are having.
    Three years ago, we submitted a report to Congress, a 1230 
report, saying essentially that we were losing in Afghanistan. 
Our most recent report demonstrates that clearly the momentum 
has shifted to our side and the Taliban are on their back foot.
    Violence continues to decrease largely due to our close 
partnership with the Afghans and the Afghan security forces. 
The more the Afghans take the lead, the less effective the 
Taliban are.
    To a certain extent, the increased partnership may place 
our force at greater risk, particularly as the Taliban 
recognized the importance of that partnership and actively 
attempted to counter it. But partnership also decreases the 
risk and decreases the need for U.S. and coalition forces to be 
in Afghanistan over the long term as we move towards on 
transitioning to Afghan lead and protecting their own country.
    I would like to add my sincere and personal condolences to 
the families of the servicemen who lost their lives, have been 
wounded in support of these goals, and particularly, I offer 
condolences to the Mickler and Acosta family and their 
colleagues for this incident.
    Every loss of life is a tragedy, and our military and 
defense personnel work hard to prevent these incidents and 
protect our forces. And we also constantly look for ways to 
learn from past events to prevent further tragedies.
    The issue that we are discussing today, that of the insider 
threat, is larger than this instance of private security 
personnel killing U.S. service members. In the combat zone that 
is Afghanistan, similar incidents of violence have occurred, 
including Afghans attacking our allies, Afghan security forces 
attacking each other, and Afghan security forces attacking 
civilians.
    Every attack--every event in itself is tragic. And we are 
working with our allies and partners in Afghanistan and our 
Afghan partners in order to try to prevent them.
    Incidents such as what happened at FOB Frontenac are truly 
tragic. And as the chairman pointed out, there has been an 
increase in attacks over the past year, at the same time as we 
have surged coalition forces and surged through to the number 
of Afghan security forces over the last 3 years.
    During that time, both our forces, our coalition allies, 
and Afghan security forces have suffered casualties. And I 
would add that the number of casualties that we have suffered, 
and our allies have suffered, and our Afghan allies have 
suffered is an evidence of the commitment to that core goal 
that I mentioned before that is shared by all who are involved.
    Not all of the insider threat attacks, of course, were 
caused by insurgent infiltration. In fact, as the chairman 
mentioned, our studies have shown that the majority are due to 
other circumstances. Personal issues, combat stress, and other 
factors, some of which we don't fully understand in every 
individual case, often underlie these attacks.
    Combat stress that leads to use of violence by forces 
against their colleagues and their partners is something that 
is an unfortunate characteristic of war everywhere and 
something that we must do everything we can to prevent in 
Afghanistan and elsewhere.
    However, I want to stress again that partnership with the 
Afghan security forces is a critical part of our strategy. And 
that is what is allowing us to make progress in Afghanistan, 
what is allowing us to have the prospect of transition to 
Afghan security lead.
    We are now in a position where half of the population of 
Afghanistan is in areas and provinces that are transitioning to 
Afghan security lead. And the capabilities that they have been 
able to build through this increased partnership is what is 
allowing that to happen and allowing the United States, as 
President Obama has already done, to reduce our presence in 
Afghanistan by 10,000 forces over the past year.
    We have also seen that the attacks on U.S. and our 
coalition allies by Afghan forces are more likely to happen 
where there is limited interaction between Afghans and U.S. and 
coalition forces.
    Where there was closer partnership, better interaction, 
understanding, better mentoring it is less likely that such an 
attack will occur. We continually need to look at the lessons 
that we are learning from these tragedies, both the one at FOB 
Frontenac and more recent ones, to find ways to prevent future 
ones.
    In order to do that, we have to work together with our 
Afghan colleagues.
    As the chairman pointed out in his opening statement, the 
vetting process for both the Afghan security forces and the 
follow-on to the security companies of the Afghan Public 
Protection Force is using vetting methods that we have 
developed.
    It is important that those vetting methods, both the 
initial vetting and, as the ranking member mentioned, continued 
vetting once the forces are in place are improved in order to 
prevent these incidents of attack on friendly forces.
    The Afghan Public Protection Force, which the chairman 
mentioned, is a force that will be under the control of the 
Ministry of Interior.
    As the chairman stated, this is a result of a decree from 
President Karzai saying that private security contractors, who 
provide protection to fixed sites, development projects, and 
convoys, will transition to Afghanistan lead under the Afghan 
Protection Force. That will happen for private companies, non-
governmental organizations, and other non-military activities 
this year, and it will happen for military activities in March 
of 2013, a year from now.
    To help build this force, ISAF [International Security 
Assistance Force] has set up an advisory group which will 
partner with the Public Protection Force and the Ministry of 
Interior to develop and train the force. That action is ongoing 
today in order to have it stood up and ready next month, in 
March of 2012.
    We are also actively looking at ways to improve the 
Ministry of Interior's ability to oversee the Public Protection 
Force and the remaining private security contractors that will 
continue to protect diplomatic activities in Afghanistan.
    Vetting is very difficult in a country such as Afghanistan 
which lacks much of the infrastructure and information systems 
that we have here. So our vetting process includes use of 
Afghan traditional methods, such as having village elders 
provide recommendations on potential recruits, as well as more 
modern procedures, such as the biometrics that Mr. Motsek 
mentioned, drug testing and criminal background checks.
    In closing, I want to emphasize that we at the Department 
of Defense take the death or injury of every U.S. personnel in 
Afghanistan or elsewhere very seriously. The security of our 
troops and the success of our mission are our top priority.
    No system is perfect, but no system, as Mr. Motsek said, is 
static. We are continually looking at this, and we appreciate 
the opportunity in this hearing to have your ideas, Mr. 
Chairman, and those of your colleagues on how we can do a 
better job.
    Thank you.
    The Chairman. Thank you.
    As I said in my opening statement, going forward the 
screening and vetting process must overcome the shortcomings 
detailed in the AR 15-6 and the other reviews done following 
the attack at FOB Frontenac.
    What corrective actions were taken after the attack at FOB 
Frontenac and how will those actions and others mitigate the 
risks inherent in the new screening process?
    General Townsend. Chairman, I will take that question. And 
maybe some of my colleagues will have some additional comment.
    There were a number of orders produced after that attack. 
There was an AAR [After Action Review], just like we always 
do--Mr. Sedney said we are a learning organization. So, we did 
an after action review in addition to these investigations, 
came up with a list of things that we could do better, and 
fragmentary orders, supplemental orders went out to the force 
to do that.
    Some of those things, specifically, related to some of the 
weaknesses that were identified in this investigation and a 
couple of others, specifically, the need for the private 
security companies to adhere to the same vetting process that 
we are using with the Afghan National Security Forces.
    A couple others that I think were very important were--and 
Mr. Motsek mentioned this in his opening statement--that we 
have added a requirement for a weekly screening.
    So, they are not just now screened when they first enter 
service, but there is a requirement for the commanders on the 
FOBs to screen all local nationals that come on and off the FOB 
on a random basis at least weekly. That is done through 
biometrics. So that if new information emerges, there is a 
chance they will catch that if it wasn't caught when they 
initially entered service.
    A couple other points were made about increasing force 
protection awareness for our soldiers themselves and their 
leaders.
    I will let General Dahl comment on----
    The Chairman. Let me just ask one question that goes along. 
Shia Ahmed had gone through the screening, but he had used a 
little bit different name each time.
    And how do you measure that against the biometrics? How do 
you pick that up?
    General Townsend. Yes, sir.
    The biometrics--a guy may report in with more than one 
name, which is not uncommon in Afghanistan, because frequently 
they have one name and they don't know how to spell it. And it 
is not clear to us sometimes how to spell it exactly, so it 
might even be misspelled.
    The guy only has one set of fingerprints. He has only got 
one facial photograph. He has only got one iris scan.
    So, it doesn't matter how many names are entered into the 
biometrics, we are going to know who he is, and we are going to 
be able to----
    The Chairman. So using the different names--or he could 
have done that like unintentionally.
    General Townsend. That is right. That is right.
    Which is not uncommon.
    The Chairman. But the name isn't the important thing. It is 
the biometrics, how they----
    General Townsend. That is exactly right.
    And, sir, I will ask General Dahl to speak a little bit 
more about the lessons learned that were applied in Regional 
Command South.
    General Dahl. Yes, Chairman.
    As you saw in the report, we made a number of 
recommendations as a result of the 15-6 to our higher 
headquarters to be incorporated more broadly theater-wide, and 
then across the force, not just in the Army, and also for 
training.
    But specifically in Regional Command South immediately 
following the approval of the investigating officer's findings 
and recommendations, in Regional Command South, where we had 
the authority to implement changes ourselves, we put several 
things into place.
    Our first intention was to close the gap between having 
people, Afghans, employed on our FOBs that had not been 
screened. So we set out to put in an order to our subordinate 
task forces and formations to immediately enroll and screen, as 
rapidly as possible, all those who are working on those FOBs, 
so we could control that piece.
    The second, sir, was that in a sustainment endeavor, once 
they were enrolled, we wanted to conduct monthly 50 percent of 
those working on that FOB would be continually screened at 
random, 50 percent, against the current watchlist.
    So the information had entered the watchlist since they had 
been vetted initially, there was an opportunity to pick up on 
that. And it wasn't practical to do 100 percent weekly or 
monthly, but we chose 50 percent monthly at random against the 
current watchlist, so that we would have some sustainment 
mechanism to pick up on new information that would enter.
    And then finally, sir, we conducted training. And this was 
training of our contracting officer representatives, those 
young officers, in some cases noncommissioned officers, who are 
responsible for oversight of the local contract in that area, 
making sure that they were more familiar with their 
responsibilities, more familiar with the policies and the 
procedures that the investigation officer had determined were 
confusing.
    I will add, sir, that I am now back at Fort Drum. We still 
have soldiers who are downrange, and we are preparing others to 
go. And I had seen some of this incorporated into some of our 
pre-deployment training as well.
    But, again, I can only speak locally in that regard for 
Fort Drum and RC [Regional Command] South, and 10th Mountain 
Division.
    The Chairman. Thank you.
    General Townsend, why do we need to have Afghan personnel 
guarding U.S. and coalition bases and soldiers?
    What are the implications of having U.S. personnel perform 
these security missions?
    General Townsend. Well, sir, as Mr. Motsek mentioned in his 
opening statement, this is not a new phenomenon. Our use of 
contracted security guards goes back a long way in our history, 
into the 1800s and even before.
    And one of the reasons we do that is it reduces the burden 
on our soldiers, and allows them to focus. We never have enough 
soldiers. It reduces the burdens on the soldiers and allows 
them to focus on the primary tasks that they have to do.
    As Mr. Motsek said, it is the offensive operations and the 
complex counterinsurgency tasks that we need them to do. So if 
they are guarding convoys, or development projects, or fixed 
sites, or even standing watch on a perimeter, then they are not 
able to engage in those higher and more complex tasks.
    So that is one of the main reasons that we do it, probably 
the most significant reason that we do it, sir.
    The Chairman. Thank you very much.
    Yes?
    Mr. Motsek. Yes, sir, if I could just say, there is always 
a misperception that we are using security guards everywhere.
    The use of security guards is condition-based. It doesn't 
relieve the commander in the field for making the determination 
that this particular location, the threat is more of a military 
threat as opposed to a criminal threat, and therefore I choose 
not to use security contractors or eventually the APPF to 
provide this security.
    The commander is not relieved of that responsibility. And 
so just because we have an installation or just because we have 
a convoy, that doesn't necessarily mean we default 
automatically to a contractor-based solution set.
    In my opening statement, I mentioned that 20,000 personnel 
would have to be diverted to this function. But I would also 
ask, and the committee is painfully aware of this, that we have 
a rotational base that we have to use to provide support 
downrange.
    And so generally speaking, the rule of thumb is for every 
job you have downrange, there are two more in the rear, one who 
is returned and one is getting ready to go.
    So for the 20,000 personnel I was talking about that we 
presently use in Afghanistan to provide this security process, 
we would be talking up to 60,000 people in the force, the 
military force, that would have to be aligned to perform that 
function.
    The Chairman. Thank you.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First, just a question in terms of--security guards are 
certainly part of the problem, but we also train the ANSF. We 
train with them, and we fight alongside them.
    Of the incidents where they have attacked our troops, I 
don't know if you know the numbers, how many have been security 
guard situations where it is people who have been supposedly 
protecting compounds or protecting areas?
    And how many of them have been ANSF forces that were 
fighting alongside or training with?
    Do you happen to know off the top of your head what the 
breakdown is on that?
    Mr. Sedney. Three of the cases are involving private 
security forces. The rest of them are Afghan National Police or 
Afghan National Army soldiers.
    Mr. Smith. So that seems to be the bulk of the problem in 
the area.
    And I guess the big question I have is, so you go through 
the initial screening process and obviously it is not perfect. 
We don't have a 100 percent database on every Afghan national 
who is signing up to be part of the ANSF or part of these 
contracting forces, but you do the best you can.
    But once they get in there, if there is a concern, a 
problem--and as you have gone through these cases, I guess two 
questions.
    And number one, have you gone back and found signs in most 
of those cases where after the fact some of our soldiers or 
marines have come forward and said, ``Well, look, the guy was 
saying this and doing this. We knew he was squirrely for a long 
time. We were worried about him.''
    So have you discovered that?
    And second, if you do discover that kind of thing now, what 
are your options and what do you do? How do you respond?
    Do you take this person out of the unit?
    How do you respond to those sorts of threats as they become 
perceived before they actually turn into an attack?
    General Townsend. Thank you, sir.
    The short answer to your first question is, yes, we have 
seen signs after the fact. Not in all cases.
    You know, we do a pretty deliberate postmortem, the 
investigations, the AARs. And they sometimes result in soldiers 
saying, ``We saw signs.''
    Afghan soldiers will say it. Our soldiers will say it 
sometimes.
    In other cases, there is no hint from any witness that 
there was any trouble with this soldier.
    So, once there are signs identified, if someone steps 
forward and provides those, then the commander there, the 
contractors and the commanders, can make decisions to remove 
that individual from the force.
    Let us talk about the ANSF in particular.
    I was at a FOB in Gardez, Afghanistan, where one day the 
Afghan intelligence officer came in and briefed the commander 
that there was a soldier he was concerned about.
    And he didn't really have good information. It wasn't 
really all that substantial.
    But the Afghan commander looked at me and said, ``He is off 
this FOB today.'' And he had him transferred away, just to 
remove the potential source of the problem.
    That is one example of Afghans taking a decision.
    Mr. Smith. And as you have investigated this and learned 
more about how these incidents happen, have you taken steps in 
terms of training our troops to, okay, look for this, report 
it?
    I mean, have we upped the awareness in some way, and if so, 
how?
    General Dahl. Yes, sir.
    Your question speaks precisely to conducting the after-
action report, conducting the lessons learned, and extracting 
those signals that we weren't attending to previously. And 
post-mortem when you are conducting these investigations and 
the soldiers or the Afghans come forward and say, ``You know, 
in hindsight, now it is clear to me that maybe we should have 
paid more attention to this.''
    Those are precisely the pieces of information that are 
incorporated into training so that--and it is spread widely 
across the formations, so that each soldier, each Afghan is now 
attentive to those indicators that weren't there before.
    So we did incorporate those in Regional Command South 
locally, and now those are also things that I am seeing in our 
pre-deployment training for the formations that we are sending 
in the future.
    Mr. Smith. Thank you.
    Thanks very much, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today, also for, Mr. and 
Mrs. Acosta, our sympathy with you.
    I am the father of four sons serving in the military, two 
who were in combat in Iraq. And so, I particularly have a great 
sympathy and identification. And I know, too, that our chairman 
has been deeply affected by your loss.
    At this time, General Townsend, I was very grateful. My 
former National Guard unit, the 218th Brigade of the South 
Carolina National Guard, served in Afghanistan 2007, 2008, led 
by General Bob Livingston, who has subsequently been elected 
the only elected adjutant general in the United States.
    But when I went to visit them, because I went every 3 
months, I was so proud of their service and concerned.
    But it was amazing to me. I thought the 1,600 troops, the 
largest deployment from our state since World War II, would be 
concentrated at Camp Phoenix and that the training would be a 
rotation to the camp.
    But to my surprise, our troops were at FOBs and military 
personnel all across the country. As it turned out, it was, 
again, such a positive experience that the net of this was that 
our personnel felt like they were working with Afghan brothers.
    So, we know that there can be incidents such as this, and I 
am just hoping that the persons that I have worked with, that 
in the future that we are vetting the other persons, the Afghan 
security forces who are serving.
    As we vet, is there any polygraph capability? Or is that 
used if there is some suspicion of someone being a threat to 
our troops?
    General Townsend. Sir, there is a polygraph capability in 
theater. However, it is rarely used for this type of thing.
    It is a very complex procedure. We rarely employ it in our 
own security forces here for particular jobs. It is complex and 
just hard to do on a large scale.
    So, I would imagine that polygraph capability could be used 
in a particular investigation. But we don't typically use it in 
screening folks for employment, sir.
    Mr. Wilson. And I would hope, though, that if a person has 
been identified as indicating a desire to kill Americans, that 
that might raise itself to where a polygraph could be used. And 
with the advances in technology today, I certainly hope that, 
and whatever biometric records there are, that could be 
considered.
    What is the military standard that is used by personnel to 
enter unfavorable data about Afghan nationals?
    General Townsend. There are a couple of venues for that.
    The first--we will just take Afghan soldiers and police, 
for example.
    The first would be with their chain of command through the 
Afghan system. The Afghans also have a biometric system that we 
are helping them build and stand up.
    And we have our own biometric system. And that biometric 
watchlist is really a master database of all of our partners, 
and all of our known and suspected enemies also are in that 
database.
    They are entered into that with their name, and as I spoke 
about earlier, some of their biological data, identification 
data, is entered into that.
    There is actually a questionnaire that you fill out, 
address, where you are from, parents' names, all that kind of 
stuff is entered. And that is probably the best place to put 
it. That is the watchlist that you hear us refer to.
    So if the information is entered into that and uploaded 
into the database, then all U.S. forces in theater will have 
access to that information.
    Mr. Wilson. And that is very encouraging. And indeed, with 
the technologies we have today, things that would have been 
unimaginable can be done.
    So, I appreciate that positive response.
    I also want to know, what recourse do U.S. commanders have 
if they are unsatisfied with the Afghan Police Protection Force 
which has been supplied to a base?
    General Townsend. The commanders have complete authority 
and freedom to secure their unit in any way they see fit. And 
so if they are any time unsatisfied with any aspect of the 
security, they are authorized to take whatever measure they 
need to take to ensure the security of their unit.
    Mr. Wilson. And so it could be reported that there is 
either an individual or maybe a whole unit could be replaced?
    General Townsend. Yes, sir.
    And in fact, General Dahl can probably speak more about it.
    In the specific incidence at FOB Frontenac, there was a new 
unit that had arrived. And there was in his contractor chain, 
the perpetrator was identified to be fired.
    But in the U.S. military chain, those facts weren't quite 
as clear. That was a disconnect that we have sought to try to 
correct.
    And General Dahl----
    Mr. Wilson. And, General, thank you, I would like to get 
your point, too.
    General Dahl. Yes, sir, two points, to readdress your 
earlier question.
    You were looking for what is the threshold or the standard 
that would require an entry to be made on the watchlist.
    And clearly, we did not have a defined standard to help our 
contracting officer representatives at the time, which caused 
some confusion.
    And a lot of that is left to the judgment of the 
individual, which is why we know we have to select the right 
individual who has the maturity and the training and the 
expertise to exercise that judgment. And we have to train them.
    Those are some of the powerful lessons we learned from this 
case that we have incorporated.
    To your second question, the local commander has the 
authority to remove anyone from his FOB, from his operating 
base.
    The contractor has the authority to fire. But whether the 
contractor fires or not, the commander has the authority to 
remove those people from his base.
    And then last, sir, just to reiterate a comment that was 
made earlier, I don't want to give any impression that military 
commanders are absolving any responsibility for the security of 
their soldiers.
    These personal security contractors that are hired are 
integrated into that security plan. And they are placed in 
those places where they can perform that function and we save 
our very highly trained, well-equipped, combat-experienced 
soldiers for the larger tasks.
    Mr. Wilson. Thank you very much.
    General Dahl. Yes, sir.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Let me first add my condolences to Mr. and Mrs. Acosta.
    Is there--and maybe just a yes or no answer from all four 
of you--is there a fail-safe system that we could institute 
that would give us any kind of a guarantee?
    General Townsend. Yes, sir, there is a fail-safe system. 
And I will let my fellow witnesses reply, and I can then 
explain it a little bit.
    Mr. Reyes. Okay.
    Who?
    General Townsend. Okay, sir.
    So, the fail-safe system that you are referring to--and we 
have kind of talked about it here a little bit--is the 
commander is ultimately responsible for his unit security as 
are the individual troopers.
    And so that fail-safe system that is out there, it is a 
technique that is employed, is to make sure you post a guard 
for yourself. And that is always an option to these soldiers.
    And they can always post a guard to overwatch what they are 
doing if at any time they feel the threat warrants it.
    Also, there is a technique it is referred to as a 
``guardian angel.'' And that is--I guess, a good analogy would 
be sort of like a designated driver.
    The guardian angel is not there to participate in the 
activity that is being done. He is there to watch out for his 
buddies while they do that activity, whether it be a meeting, 
or cleaning weapons, or undergoing physical training.
    This guardian angel is prepared to fight. And he is in a 
position of advantage to overwatch that activity. And that is 
what he does.
    And sometimes that can be done in an unobtrusive way by 
introducing a person into a meeting who just sits and watches 
what is going on in the room, and doesn't really participate in 
the meeting.
    So, that is just an example of these fail-safes that are 
taught to our soldiers in training, and they are available to 
the commanders and any soldier.
    Mr. Reyes. Yes, General.
    General Dahl. Yes, sir. If I could just--I am not going to 
disagree with my buddy, but I interpreted your question a 
little bit differently.
    Just to add, we should aspire to develop and implement a 
fail-safe system. And that is precisely what we are doing, 
because we are going to meet our responsibilities to secure our 
formations.
    However, we have to remember that in combat environment, 
not everything turns out the way you expect it. And you simply 
cannot anticipate everything, and unfortunate events happen. It 
is a very, very risky environment.
    So, we are committed to meet that challenge and do 
everything we can. But we also have to recognize in that 
environment we just don't control everything.
    Mr. Reyes. But if I heard you correctly, this fail-safe 
system, as much as we can do it--and look, I just want to 
remind everybody, we had a horrible attack at Khost, right on 
the border with Pakistan, where we lost a number of CIA 
[Central Intelligence Agency] personnel.
    But what you are saying is that the fail-safe system still 
requires our military being involved, correct?
    General Townsend. Yes, absolutely. And, of course, they 
are.
    And in fact, I didn't mean to imply earlier that--and I 
thank General Dahl for pointing out that, there is no--I guess, 
it is probably improper to say there is a fail-safe system, 
because no system is perfect.
    Mr. Reyes. Right.
    General Townsend. So, this is a thinking enemy that we are 
dealing with here, a cunning enemy, who wants to hurt us.
    And every now and then, the enemy is going to have some 
success.
    So, what we are trying to do is eliminate as much as 
possible, reduce the possibility that that can happen. But we 
can't eliminate it completely.
    I didn't mean to imply, in any of our statements so far, 
that U.S. forces don't pull security for themselves. They do.
    In fact, again, it is up to the local commanders.
    So, there are places where the commanders have made risk 
assessments that it is appropriate for either local security 
contractors or Afghan security forces to secure that area.
    In other places, they deem that it is more appropriate that 
we do it together. And in other places, it is very appropriate 
that we do it ourselves----
    Mr. Reyes. And if I can just interrupt you, because I 
wanted to get this other point in.
    Do we currently have any backlogs in the system for anyone 
that wants to know the potential for somebody being a threat? 
Are there any backlogs?
    Are we up-to-date on any inquiries of the system?
    General Townsend. Sir, I think I understand your question.
    There is actually--it is almost instantaneous if someone 
wants to check the watchlist. There are some physical 
limitations to the system.
    For example, if I have gone out and enrolled some folks in 
biometrics, I actually have to go upload it into the master 
database. And that takes time. It takes resources. And 
sometimes I have got to have a good signal, a good bandwidth to 
get my upload out.
    So, there are some physical limitations that might be a 
delay. But we are talking here a matter of hours or days, not a 
significant backlog to enter data into the database and check 
the master watchlist.
    Mr. Motsek. Sir, you bring up an excellent point. This 
technology helps us do this.
    And as General Townsend said, we are managing a bunch of 
different databases and linking them consistently. But you are 
all keyed to that piece of equipment down range which has had 
limited availability, to be blunt about it.
    They break. We have challenges.
    In light of that--again, trying to improve what we do and 
recognize what we have learned--next month the Army, for 
example, will be deploying for the first time.
    And, hopefully, we will be deploying in large numbers later 
this year, a biometric device that is much more simple to 
operate. It is based on a smartphone technology as opposed to 
the larger packages that you have seen previous to this.
    And we could be much more free in the distribution of those 
downrange.
    So instead of having the existing chains of people 
providing access, we now give one to the contracting officer 
representative, him or herself, as opposed to having to go to 
an intelligence specialist or someone else at the installation.
    And that input now becomes multiplied as we proliferate the 
systems downrange.
    Mr. Reyes. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman, and also, Mr. and 
Mrs. Acosta, our condolences, as well.
    Fifty-eight percent of these incidences were not related to 
the enemy we faced necessarily, but would just appear to be 
personnel disputes between the Afghans and, I guess, somebody, 
either the Americans or someone else.
    The process of maintaining how those disputes are going on 
and--can you talk to us a little bit about how units are 
trained to watch for these kind of, for lack of a better place, 
workplace kind of incidences where somebody gets insulted, or 
they don't get the job they thought they were going to get, and 
how do we watch for that.
    And then much of that is intuitive based on you were there, 
you understood what the fight was going on.
    How do we hand off in unit rotations, the information about 
the people who have left there that might be subject to some 
sort of a workplace issue that could develop into an armed 
response, so to speak?
    General Townsend. Sir, if it is all right, I will take the 
question about how do we manage the frictions. And I will ask 
General Dahl to maybe address the question about battle 
handover of the information.
    On your question about the personal reasons, there are a 
number of personal reasons that cause this kind of a conflict 
to occur. You pointed out a couple of them yourself.
    One of them is just simple insults. Another one is combat 
stress that the individuals are under.
    Cultural misunderstandings, I kind of talked about that in 
my opening remarks. Those are some of the examples.
    Religious and ideological frictions, where I watch you do 
some activity and I perceive it in one way based on my religion 
or ideology.
    So these are all some of the reasons that go into the 
personal motivations that these Afghans--when they act out.
    Mr. Conaway. Looking at the 26 incidences that have 
happened so far related to that, do we analyze, kind of, what 
categories those fall into? And can we learn anything from it?
    General Townsend. Yes, sir. In fact, we do.
    And where we can identify that there are personal 
motivations, sometimes they are not discernible. Where we can 
discern those, you can categorize those.
    I just described some of the categories. Some of the things 
we can learn from it, first of all, and I kind of mentioned 
this in my opening remarks, is the importance of cultural 
training that all U.S. service members undergo before they 
deploy.
    And in fact, General Karimi, the chief of staff of the 
Armed Force of Afghanistan, has directed that his soldiers will 
start undergoing cultural training as well, so they understand 
a little.
    That is not something we have attended to in the past--
making sure Afghans know how to deal with us as their partners.
    We have been training our side of that equation for a long 
time.
    The other one is our own conduct. Making sure that our own 
soldiers comport themselves the way we would expect U.S. 
soldiers to do that.
    And I will ask General Dahl if he can talk about, maybe, 
the transfer of that information about people.
    General Dahl. Congressman, two points. One is training, and 
the other one is leader involvement or leader over watch.
    And what we have done, in Afghanistan in particular to get 
after this, is to insert greater attention to the training and 
the leader oversight during what we call RSOI, the receiving 
and the staging and the onward integration of the forces.
    So when they arrive into Afghanistan, there is additional 
attention paid toward the cultural situation in that specific 
location. Because there are cultural differences as you go from 
district to district, province to province.
    So we will address those so that the soldier is aware and 
sensitive to cultural differences that could be a problem.
    And then also the awareness, but also the involvement of 
the leadership in that training and in the overwatch is 
important.
    Mr. Conaway. Is there specifically in the checklist of 
handoff from one to--this issue about, here are the five 
individuals we have had some sort of a dustup with. We don't 
know if it is going to result in anything.
    But I am watching him. You should, as well.
    Is there a formal kind of a handoff of that issue 
specifically between commanders?
    General Dahl. Sir at the unit level, the commander-to-
commander and his non-commissioned officer 1st sergeant or 
command sergeant major, command sergeant major, will identify 
who are the strong soldiers and who are the weak soldiers.
    And I think that that applies not only to our own 
formations but to our partners, as well.
    Mr. Conaway. Okay, you said you think that applies, but is 
it institutionalized so that we do, in fact, get some attention 
paid to this issue, since 26 percent of these incidents 
occurred not from guys who supported the Taliban or supported 
Al Qaeda, but are actually just got mad at us for their own 
reasons.
    General Dahl. I understand, sir. I can't say that it has 
been institutionalized across the Army.
    General Townsend. Sir, you make a great point here. And as 
General Dahl has pointed out, something that a lot of units are 
doing, but you are asking is everyone required to do it.
    Mr. Conaway. Right.
    General Townsend. I can't answer that affirmatively right 
now. But I have written it down. We will take that back.
    [The information referred to can be found in the Appendix 
on page 53.]
    General Townsend. And if it is not, it is an easy add to 
the orders that I had talked about earlier.
    But is this on the relief in place battle handover 
checklist that there is a specific point in that relief in 
place where the outgoing commander and the incoming commander 
talk about potential insider threats, and people that have been 
identified as maybe being suspicious will check on that.
    If we can get you an answer on that before the end of the 
hearing we will. But I have written it down to follow up.
    Mr. Conaway. Thanks. Gentleman yields back.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, for holding this 
hearing on this matter that is critical to the safety and 
security of U.S. forces in Afghanistan.
    I want to also give my personal condolences to the Acostas 
for the sacrifice that you have made, and the sacrifice that 
your son made on behalf of this country.
    And isn't it comforting to know that that sacrifice was 
made for the security of a country that you can now come to and 
petition the civilian authorities to look at the circumstances 
that led to your son's sacrifice.
    You have that ability here in the United States. And that 
is what your son gave his life for.
    And for that we will appreciate him. And we appreciate you 
for taking your time and resources to petition your government 
to take a look at these circumstances, to see whether or not 
there is something that can prevent another family from having 
to go through what you have had to go through as a result of 
the same circumstances that resulted in your son's sacrifice.
    So, I want to thank you all for being here.
    I also want to thank General Townsend and the rest of the 
folks on the panel today for being here to testify. I cite 
General Townsend since he is a Georgia native. He is my 
homeboy.
    So, welcome, sir.
    I do have a question.
    Can you define, General Townsend, what success is in 
Afghanistan? What would be our success?
    And also I would like to know from Mr. Sedney, whether or 
not we are on course to remove all of our forces from 
Afghanistan by the end of 2014.
    General Townsend. Sir, that question you just asked me is 
pretty high up on the pay scale for me to answer. But I will 
just look at our national objectives in Afghanistan as I 
understand them.
    First of all is to ensure that Afghanistan never again 
becomes a safe haven for transnational--specifically Al Qaeda--
but other transnational terrorists that might threaten our 
country. That is job one on the success list.
    Secondly is to do that, we have determined that what we 
want to do is establish a credible enough Afghan state and 
security force that they can secure themselves, and we don't 
have to stay there forever to make sure it is not a safe haven.
    So, those are my definitions of success. And I will turn it 
over to Mr. Sedney to talk about progress.
    Mr. Johnson. I would also add a comment.
    The fact that they, the Afghans, seem to not want us to be 
there does not mean that they are not interested in protecting 
their country from outside influence, aka Al Qaeda, or some 
other terrorist group that seeks to use the country as a base.
    Is that correct?
    General Townsend. Sir, I would maybe express a little 
exception to your point of they don't want us there. I have met 
a lot of Afghans in my three tours there. And there are a lot 
of Afghans that want us to be there and help them help 
themselves.
    There are certainly a number that don't, but your point is 
exactly right, and I would agree that just because--even those 
that don't want us there, don't necessarily want Afghanistan to 
be a haven for international terrorists.
    Mr. Johnson. Well, your clarification is well taken.
    Mr. Sedney.
    Mr. Sedney. Thank you, Congressman, and I will certainly 
fully associate myself with General Townsend's point that we--
and your point is accurate as well--we and the Afghans share a 
goal of having Afghanistan being responsible for its own 
security.
    Afghans don't want their country to be used to attack other 
countries, with the small exception of those that support the 
Taliban, which is a very small amount.
    You asked if we are on track towards that goal. And I would 
say yes, we are.
    As the President stated in his remarks in June, when he 
announced that we would be withdrawing 10,000 troops by the end 
of this year, and we have--by the end of last year, and we did 
remove those 10,000 troops.
    We are on track towards achieving our goal of having an 
Afghanistan that is capable of defending itself from the threat 
of terrorism and from the possibility of safe havens.
    To do that, there is both a lot of fighting that needs to 
be done and a lot of training, advising, and assisting the 
Afghan security forces, because it is building the Afghan 
security forces through the partnership with them that is 
enabling that transition to take place.
    And already, as I said, almost 50 percent of the country, 
of the population of the country is in areas that are 
transitioning.
    The Afghans, as General Townsend said, do appreciate the 
advice and support and assistance that we are giving them, and 
I would say particularly in the military.
    I have met from the top of the Afghan military to the 
ordinary fighting Afghan, innumerable Afghans who expressed 
their appreciation for us.
    I have heard that from Mr. Wardak, and from the Afghan 
generals repeatedly, that they appreciate. But that they are 
also, to be frank, embarrassed by the fact that other countries 
have to come and do their fighting for them.
    They want to do their fighting on their own. We want to 
enable that.
    So, we are on course to do that. And that will enable us to 
transition to Afghan security lead.
    There will be, of course, as the Secretary of Defense has 
said, a continuing need to train, advise, and assist the Afghan 
military after 2014, after that transition to their lead.
    Mr. Johnson. All right. Thank you.
    And I am out of time.
    If I had more time, I would ask whether this screening 
process currently used by the Afghan National Security Forces 
to vet recruits to the Afghan Public Protection Force, whether 
or not it is adequate and practical. But perhaps someone else 
will ask that question.
    The Chairman. Gentleman's time has expired.
    Will you please take that question for the record?
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Sir, ma'am, I am sorry about your loss. And I want to thank 
you for coming today.
    I think it elevates the importance of the meeting and 
reinforces our need to fix the issues over there so that this 
doesn't happen again.
    General Townsend, you mentioned that many times some of the 
Afghans who are applying for these positions cannot spell their 
name. One of the things that I was taken aback by when I was in 
Afghanistan--we were at a NATO [North Atlantic Treaty 
Organization] police training facility--is the extreme lack of 
education.
    And taking a man or a woman who can't spell their name, or 
couldn't read a book of the level of The Cat in the Hat, if you 
will, and handing that person an AK-47 [assault rifle] and 
expecting them to carry out security-related details.
    And my question gets back to, in these events that we have 
seen where we have had these tragedies, is the lack of 
education a common denominator, or are the attacks carried out 
by people who--Afghans who may very well be better educated?
    Is the education level, has that been a common denominator 
in the people who have carried out the attacks?
    General Townsend. I will ask for General Dahl's help a 
little bit on the education piece.
    I haven't seen any data that associates level of education. 
I know that we have seen attacks by those who are illiterate, 
as well as attacks by those who are highly educated.
    I don't know. I haven't seen that trend. So, I can't talk 
to that. Maybe General Dahl can.
    I will say that your point about education and literacy is 
a very important one. And it is something that we are tackling 
very explicitly.
    The NTM-A, NATO Training Mission-Afghanistan, has a very 
strong literacy program. GIRoA [Government of the Islamic 
Republic of Afghanistan] has a strong literacy program to--it 
is probably one of the most important social developments, I 
think, in all Afghanistan, is there is a very focused program 
to teach Afghan soldiers and policemen how to read.
    Right now about half of the Afghan Army has been exposed to 
reading between a first and the third grade level. It has 
been--that target has been ratcheting up.
    But the goal is that all Afghan service members in the 
police or the army during the term of their enlistment, their 
first enlistment, learn how to read.
    And I think this has implications for the country that go 
far beyond a higher quality security force when they go back to 
their villages and are able to read after their term in 
service.
    And, General Dahl, can you help me about education.
    General Dahl. Yes, sir.
    Congressman, thank you for the question.
    I would just add that--and you are right.
    I was in the South, and in the South illiteracy is 
particularly high. I learned in my time over there that a lack 
of education, the lack of ability to read or write or add or 
subtract did not necessarily limit someone from performing a 
particular function or achieving a capability.
    But it severely challenges our efforts to train them, 
which--and we learned a lot of lessons about how to go about 
that in a way where we are communicating more effectively.
    It takes a little bit longer. You have to start at a very, 
very base level.
    But I guess we are learning just because someone can't read 
and write doesn't mean they are not capable, just means you 
have to go about it a little bit differently.
    So, I am not that concerned about that long-run.
    I would add that the training program, the literacy program 
that is part of the development of the ANSF forces is very, 
very good. It is possible that in the future that cadre of ANSF 
is--becomes some of the most literate people, at least in the 
South.
    I can say that that would be true. And I will leave it at 
that.
    Mr. Scott. I guess my question--and I will end with this 
and allow this process to move on.
    It seems to me that somebody who is less educated would be 
more susceptible to the rhetoric, if you will, and to be led 
down the path of carrying out an attack, or some type of 
terrorist attack by some other type of what they might refer to 
as a religious leader.
    Thank you, gentlemen.
    Mr. Sedney. Congressman, on that you have asked an 
excellent question. We will go back and see if there is a 
connection between illiteracy and training in the carrying out 
of those attacks.
    I don't think we have been asking that question, and based 
on your input, we will do that.
    Thank you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Motsek. Sir, if I may add one more thing, with regards 
to the security contractors.
    The reliability of the educated contractor is significantly 
greater. One of the reasons why we had a fracture early on 
between the police force and the security contractors is the 
very good security companies recognized very early if they 
offered education to their employees, they would have a better 
and more reliable employee.
    Something as fundamental as to be able to count the money 
you are paid on a given day is extraordinarily important. When 
you give a person that capability, you have changed something.
    Several months ago, when I was in country, I saw a gate 
guard that I had seen before. He ran up to me and he literally 
handed me his AK-47.
    He handed it to because he read the serial number off the 
side of it to me. He was incapable of doing that before.
    So, I would argue that it is not a question of reliability 
so much as competency. You have a more competent individual if 
we follow the path that you have described.
    Mr. Scott. Thank you.
    Mr. Chairman, I yield.
    The Chairman. Thank you.
    Last year when I was in Afghanistan meeting with General 
Caldwell, he pointed out that vast majority of the country are 
illiterate. And the problem that they have of teaching--a 
sergeant trying to teach them how to fire a weapon, when he 
says, ``Put four cartridges in,'' they didn't know what four 
was.
    But he told us at that time that the 70,000 they had 
recruited that year, most of them had gotten through that 
training up to the third grade, and vast improvement.
    And I think that will have long-lasting effects for the 
country, too. They felt very good about the fact that they were 
getting education, and as has been stated, they felt good about 
that.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman, and to the family, 
thank you for being here today.
    We lost a young man in 2010 in Iraq in a very similar 
situation. It is most troublesome, and our condolences and 
prayers are with you.
    I thank the gentlemen for being here today.
    General Townsend, a lot has been said about biometrics. And 
what happens when the machines don't work?
    I read somewhere that there seemed to be a failure and not 
enough machines throughout the country.
    What happens when the machines don't work?
    General Townsend. That is a great point, sir, and thanks 
for that question.
    The biometrics is just one piece of a complex and layered 
system that I talked about in my opening remarks. There are 
actually four levels to this: prevent, educate, train, and 
protect. Those are the four levels.
    The biometrics comes into the prevent piece. The prevent 
piece is largely based on that eight-step vetting process.
    One step of that vetting process is biometrics. And then 
you have heard testimony here that we are continuing now with 
weekly screening.
    Mr. Kissell. And General, if--and I apologize for 
interrupting. I do want to follow along this path for just a 
second.
    If there was not a machine working in one step for 
biometrics, checks could not be made. Would that be enough to 
at least pause somebody being in the process? So, you would not 
say okay, we don't have this today, but we will go ahead and 
bring him in anyway.
    General Townsend. And that is a great point. And that is 
actually one that I think the outcomes of the investigation 
from the FOB Frontenac incident. And Mr. Motsek can talk about 
I think, here in a second, the arming process for security 
contractors.
    But no, the process stops when a person can't be 
biometrically enrolled into the watchlist, his forward movement 
through the induction process stops.
    And if you would talk about arming----
    Mr. Motsek. Right, as General Townsend said, it has got to 
be multilayered. And if you follow the procedures correctly, 
you have the biometric process. And indeed, you have two 
biometric processes now.
    You have the U.S. biometric process and you have an Afghan 
biometric process that are complementary. So you have got that.
    But the same process, you have an arming requirement as 
well. The Afghan Ministry of Interior is the one who provides 
you your arming authority from the Afghan government. And we 
should have the same corollary, and we had the same processes 
in place where we provide an arming authority as well.
    And in this particular instance, as you recall in the 
investigation, the local commander thought he had a window 
because this person had been previously employed and the like. 
He thought he had a window.
    My position as the DOD guy is that window does not exist.
    You are proper in your assessment that if you cannot 
properly biometrically enroll someone, if you cannot properly 
license them to be armed, because that infers training and 
knowledge on certain rules, that the process has to stop. And 
then you----
    Mr. Kissell. How complete is the biometric database from 
all people that are inputting and checking?
    How free of stovepiping is this information?
    Is it broad, so that various inputs, there is not, say, one 
department, one country, one unit that is not included or does 
not have access across the board?
    General Townsend. There is an Afghan database and there is 
a U.S. database. And we share information.
    You might understand why we would have a separate database 
from the Afghans. But by and large, there is not that much 
difference, but we share information. So, there is a deliberate 
effort to prevent the stovepiping, sir, that you are talking 
about.
    Mr. Kissell. Once someone is vetted and once they have been 
brought in, and I know you talk about the weekly checks, but 
how difficult would it be, for example, if someone was, say, 
looked like, if they were Taliban, they looked like someone who 
had been vetted.
    How difficult would it be for somebody else to come on base 
and assume the identification of somebody who has been vetted?
    Do we reach a comfort level? Do we have daily checks?
    How difficult would it be for me to come on base looking 
like somebody else, and have access to be able to do harm?
    General Dahl. Sir, I can say, just to refer to my comments 
earlier.
    I know one of the things we did immediately afterwards was 
to ensure everyone, all of our contractors, not just the 
personal security contractors, but all of the Afghan 
contractors on our bases were enrolled and vetted.
    But then on a sustainment basis, we went with 50 percent on 
a monthly basis randomly. That is a case where we would pick on 
someone like that.
    But it is not perfect. We wouldn't pick on them perhaps the 
day that they walked on and were impersonating someone else, if 
that is what you are alluding to.
    And really it is a material solution. It is how much time 
and how much equipment do you have to dedicate to this.
    So again, we want to aspire to the perfect solution, given 
the limitations that we have. And those are the measures that 
we have taken.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    I do have some other questions that I will forward for 
outside follow-up.
    The Chairman. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman, thank you, panel, 
and most of all, thank you for coming today, for your service 
and your sacrifice.
    Our prayers are with you and the Nation's gratitude. So 
thank you, thank you.
    Regarding the incident, I want to kind of hone in on that a 
little bit. And it looks like, that first of all, the Tundra 
employees did an investigation and let this person go.
    But that recommendation was never incorporated into the 
Tundra personnel records. And then subsequently, the U.S. 
investigated also into the allegations, but they couldn't 
substantiate the credibility of the statements, so the officer 
decided not to enter this information in.
    I would like to know, since this happened what change of 
procedures has there been, first of all, in U.S. policy at it 
relates to investigations of this kind?
    If they determine that somebody is unsubstantiated, then 
what is the process?
    Has that been changed? Or are they required now to enter 
that? Or----
    General Dahl. Ma'am, I will start, and then I will hand it 
off.
    You are correct. Your read of the investigation is exactly 
correct.
    We had two different judgments that were made, one by the 
Tundra contractor, one by the officer who was responsible. And 
it speaks to the question that was raised earlier as to what is 
the threshold that would require a mandatory entry in there.
    I know that what we did afterwards locally was to 
essentially raise that threshold, raise any suspicion, that 
would cause an entry to be made and that person to be removed.
    And this partly explains why post the attack at FOB 
Frontenac, when we went and did that vetting of all the 
employees there, that some additional ones were removed.
    I will ask my colleagues if they could talk about how we 
have institutionalized that beyond my experience.
    General Townsend. I think it was Ranking Member Smith, who 
said earlier that we need to intercede earlier. If it is 
unclear, err on the side of safety, which I think kind of sums 
up what we are talking about here.
    But in the end, these are judgments by leaders and 
commanders on the battlefield.
    So if someone brings an allegation to me, I am going to 
hear it out and explore it. And at some point, I will make a 
decision that it is either substantiated and he is fired, or it 
is substantiated and he is fired or he is not fired, but it is 
put as a note in the watchlist.
    Or it is completely unfounded because this guy has got 
some--there is some conflict between the two of them. So, the 
person who is giving me the allegation is just unfounded. And 
so, I might make a decision not to enter it.
    Just because an allegation has been made, these leaders out 
there are making those judgment calls.
    But I think Mr. Smith's point about err on the side of 
safety for the U.S. soldiers is a good rule to go by, ma'am.
    Mr. Motsek. The other thing that changed was that--again in 
the investigation, because it was unsubstantiated, the senior 
leadership of Tundra chose not to put it in the person's file.
    We now require them to put ``investigation concluded, it 
was unsubstantiated,'' so it is not a non-response. It is not a 
non-placement. You have to make an affirmative decision, and 
record that affirmative decision now.
    Mrs. Hartzler. I am glad to hear that.
    General Townsend. Can I add?
    One of my assistants here just handed me a note that says 
actually the USFOR-A [United States Forces-Afghanistan] order 
requires an entry to any incident that may pose a threat to 
U.S. personnel such as threats, if the person makes a threat or 
has a negligent discharge with their weapon.
    But again, there is going to be some line there where it is 
a commander's call. Is that really a threat or is that not?
    And that is what we are talking about.
    Mrs. Hartzler. Okay. I am a little confused as to what you 
just said.
    I thought you just said that it is procedure that it is 
entered. But then you say, it is up to the commander's call. So 
is it or isn't it?
    General Townsend. Yes, such things, obvious things such as 
threats. So if I make a threat against an American force, they 
are required to enter.
    But if someone says, ``I heard so-and-so make a threat to 
an American force,'' there is going to be a commander who is 
going to investigate that, and he is going to make a decision. 
``Okay, I don't think that is credible.''
    Is it credible or is it not credible?
    If I know that he threatened Americans, that is very 
credible.
    General Dahl. And, ma'am, just to tie it back to the 
investigation also, the officer who did not enter that in there 
determined that the threat was unsubstantiated. So, he was not 
required to make an entry at that time in his judgment.
    Had he made the judgment that it was a substantiated 
threat, he would have made the entry.
    Now, it is a requirement to make that entry. But still 
there is a judgment that has to be exercised as to whether or 
not this is a credible threat, or if this is just someone who 
is--it is a family dispute and they are trying to cause 
problems for another.
    Mrs. Hartzler. So, you say he does have to enter it, 
though, even if he doesn't let him go, he does enter it?
    General Dahl. Yes, ma'am. The policy requires the entry be 
made if the judgment is made that he is a threat.
    Mrs. Hartzler. Got you. I think that is good.
    It needs to be in there, even if it is unsubstantiated. 
People need to know.
    And I want to follow up on your earlier anecdotal story 
about the Afghan security officer.
    General, you said they came in and there was a soldier and 
they had some concerns about them, so they let him go and moved 
him out of that.
    What was done with him, besides just letting him go? I am a 
little concerned he might go to another FOB and do the same 
thing.
    General Townsend. Right. In the case that I was referring 
to, that soldier had a personal conflict--reportedly had a 
personal conflict with a specific American soldier, not that he 
had a problem with all Americans.
    But there was a personal insult that was perceived by this 
Afghan soldier. And so the Afghan commander made a decision to 
move him away to a different location and remove him from that 
conflict.
    At the time, I thought that was an appropriate decision 
made by an Afghan leader dealing with an Afghan soldier.
    Mrs. Hartzler. But hopefully note that conflict in his 
record that went with him. Yes?
    General Townsend. I don't know about that at the time, 
ma'am. This is about a year and a half ago. And even at that 
time, all of our Afghan security forces weren't yet entered 
into biometrics.
    Mrs. Hartzler. I appreciate it. I just think we need to err 
on the side of caution and have a valid record that goes with 
people so that in the future people know of past instances to 
avoid any potential future negative incident.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. Appreciate your 
holding this important hearing. Certainly appreciate all the 
witnesses' testimony and focus on this important issue.
    I want to add my words of personal sympathy and gratitude 
to the families who have lost loved ones.
    You know, we can often take for granted the freedoms we 
have, and the truth is, we only have the blessings of freedoms 
we do as Americans because of heroic selflessness of our men 
and women in uniform who are willing to go into harm's way and 
give their lives in service to this Nation.
    So, we certainly have you in our prayers, and our gratitude 
for you giving your loved ones for all of us.
    General Townsend, if you could comment--and I recognize we 
are in an open setting here, not a classified setting--but 
earlier today, Reuters reported the following: ``The United 
States military said in a secret report that the Taliban, 
backed by Pakistan, are set to retake control of Afghanistan 
after NATO-led forces withdraw, raising the prospect of a major 
failure of Western policy after a costly war.''
    Again, knowing we are in an open setting, are you able to 
comment at all on the existence of this report, or the general 
characterization about the Taliban retaking control, anything 
in your knowledge that would relate to what is being reported 
today by Reuters?
    General Townsend. I can comment a bit about it, but, as you 
said, not much because of the classified nature of the report.
    Mr. Platts. Understood.
    General Townsend. The truth is I am aware of the existence 
of the report. I have received a copy of it. But I haven't read 
it and digested it myself.
    What I do know is the report is taken from interrogations 
of Taliban prisoners. And so, these guys that were--you got to 
keep it in context.
    The folks that are quoted in this report are some of the 
most ideologically committed folks on the enemy side. So, I 
don't think they are representative, one, of the Taliban as a 
whole, nor are they representative of the Afghan people.
    I think that is probably--best I know off of a quick glance 
at the cover of the report, that is about all I can say on it.
    Mr. Platts. So based on your knowledge and what we can talk 
about here in an open setting, the report isn't a finding of 
our own intelligence gathering out there on the street, in 
essence, but more those who we have captured who are in a 
defiant manner saying this is what is going to happen.
    And so the credibility of the basis of that report needs to 
be maybe closely scrutinized?
    General Townsend. I don't want to attack the report because 
I haven't read it. But I just want to keep it in context, that 
the reports are coming from enemy soldiers held in captivity--
--
    Mr. Platts. And maybe say the credibility of the source or 
the basis of the report, not the report itself.
    General Townsend. Yes, sir.
    Mr. Platts. Okay. Thank you.
    And, again, appreciate all of our witnesses for your 
service to our Nation. And we are grateful for what you do.
    So, Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    I want to thank you for being here today. I appreciate the 
testimony that you have given, the questions that have been 
asked.
    I believe we have received some of the answers that we have 
sought on how we can reduce the number of these attacks.
    The committee will continue to review and investigate these 
attacks and work with the DOD to constantly work on making 
improvement in this area with the DOD and with the Army.
    Thank you very much.
    This hearing then is adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 1, 2012

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 1, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

             Use of Afghan Nationals To Provide Security to

         U.S. Forces, in Light of the Attack on U.S. Personnel

           at Forward Operating Base Frontenac, Afghanistan,

                             in March 2011

                            February 1, 2012

    In September last year, this committee explored the issue 
of attacks by members of the Afghan National Security Forces on 
U.S. and coalition personnel. The witnesses concluded that DOD 
had ``mitigated the risk about to the degree we can,'' in 
``these few occasions'' when such attacks have occurred.
    Since then, the committee staff has continued to look into 
the factors behind attacks by Afghan nationals on coalition 
forces, including attacks conducted by Afghans hired by private 
security contractors to protect U.S. bases. The staff has used 
the attack in March 2011 at Forward Operating Base Frontenac as 
a case study to better understand the range of issues. In that 
attack, two soldiers died, including my constituent, Specialist 
Rudy Acosta, and four were wounded. I would like to note that 
Specialist Acosta's father and mother, Dante and Carolyn 
Acosta, are with us today.
    Private security contractors are used in Afghanistan to 
provide personal protective services for Department of State 
personnel and dignitaries, to guard construction sites, to 
ensure safe movement for other private companies doing business 
in Afghanistan, for guarding supply convoys, and to augment 
coalition forces by providing base security. In the case of 
base security, the Commander in Chief is responsible for 
determining the size of the U.S. force deployed to Afghanistan, 
the missions that force will undertake, and the necessary 
contractor support. For different reasons, both President Bush 
and President Obama have chosen to limit the size of the U.S. 
force and to use private security contractors to enhance base 
security. In contrast, it is Congress' role, and the purpose of 
today's hearing, to assess the advisability of these policies 
and whether the Administration needs to change its approach.
    Complicating matters further, President Karzai has dictated 
that only Afghan nationals may be certified for employment as 
private security guards and has not permitted U.S. citizen 
contractors. Karzai has also ordered the private security 
contractors to be disbanded. The Afghan Ministry of Interior 
will assume full responsibility for providing the Afghan 
Personal Protection Force (APPF), a new organization that from 
March 2012 onward, with a few exceptions, will replace private 
security contractors. The APPF will be available on a fee-for-
service basis to coalition forces to perform the services I 
just described.
    According to DOD, the Afghan Ministry of Interior, in 
conjunction with U.S. and coalition forces, will use a vetting 
and screening process that will be the same for both the Afghan 
National Security Forces and the APPF.
    I recognize that it would be virtually impossible to 
establish a foolproof screening process. Our own national 
security screening system is not foolproof. Yet, we must 
recognize that the existing processes failed to identify 42 
attackers in 2007 to 2011. Thirty-nine of those attacks were by 
members of the Afghan National Security Force, and three by 
contractor employees. Though less than one percent of Afghan 
forces and security guards have attacked coalition forces, this 
is 42 attacks too many and the new process must do better.
    Another concern is that the screening and vetting has been 
tragically weak in picking up signs of threats after the Afghan 
joined either the Afghan National Security Force, or a private 
security contractor. DOD data indicates that at least 60 
percent of all the attacks appear to be motivated by personal 
matters, arising after hiring.
    So it was with the attacker at FOB Frontenac. In July 2010 
at another forward operating base, his employer, Tundra 
Security, fired him for allegedly making statements about 
killing U.S. personnel and recommended that he not be rehired. 
The contractor's chain of command did not enter that 
recommendation into the attacker's file, and the attacker was 
rehired by the same contractor in 2011, just before the attack 
at Frontenac.
    Moreover, because a parallel U.S. investigation of the 2010 
allegations concluded that the statements could not be 
substantiated, the U.S. official at the base decided not to 
enter the allegations about the attacker in the U.S. watch list 
system.
    Adding to my concern about the vetting system not being 
focused in the right place, a U.S. rescreening of all Afghan 
security guards at Frontenac immediately after the attack 
resulted in several being dismissed as ``unworthy'' of 
employment.
    Finally, I am concerned about the Department's September 
statement that its efforts have ``mitigated the risk about to 
the degree we can.'' At the time, the committee was not aware 
that the frequency of these attacks had dramatically increased 
in 2010 and 2011--in fact, 75 percent of all attacks have 
occurred in the last 2 years. The Department attributes the 
increase with the growth of U.S. forces in Afghanistan. But, we 
need to understand the contributing factors better, so that 
more effective steps can be taken to further mitigate attacks 
on U.S. and coalition personnel.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

             Use of Afghan Nationals To Provide Security to

         U.S. Forces, in Light of the Attack on U.S. Personnel

           at Forward Operating Base Frontenac, Afghanistan,

                             in March 2011

                            February 1, 2012

    Thank you, Mr. Chairman, for calling this hearing. I would 
like to thank our witnesses for agreeing to come before us to 
testify about this subject as well.
    We ask our brave men and women in uniform to take on many 
risks and dangers in wartime, and they should not have to be 
concerned about being attacked by those whom they serve with or 
seek to protect.
    We in Congress, and those in the Pentagon, owe it to our 
military personnel to do everything we can to reduce this sort 
of risk. Like the actions taken over time to reduce friendly 
fire casualties, eliminating the threat of ``insider attacks'' 
should be a high priority, whether from a private security 
contractor or member of the Afghan National Security Forces 
(ANSF). Hearings such as the one today are helpful in 
determining what drives these sorts of attacks, and what 
policymakers can do to prevent them from occurring in the 
future. It is our duty to do whatever we can to protect our men 
and women in uniform, and that includes preventing attacks from 
the Afghan troops that they serve with.
    In addition to presenting a security risk to our troops, 
attacks of this nature also undermine the trust between U.S. 
and Afghan personnel. That trust is a key ingredient in our 
efforts to build the ANSF, and those forces are a key factor in 
our plan to eventually wind down our involvement in the war in 
Afghanistan. Similarly, if our military personnel cannot rely 
on those hired to guard U.S. bases, they cannot be effective.
    Again, I would like to thank our witnesses for appearing 
today and thank the Chairman for holding this hearing.

[GRAPHIC] [TIFF OMITTED] T2935.001

[GRAPHIC] [TIFF OMITTED] T2935.002

[GRAPHIC] [TIFF OMITTED] T2935.003

[GRAPHIC] [TIFF OMITTED] T2935.004

[GRAPHIC] [TIFF OMITTED] T2935.005

[GRAPHIC] [TIFF OMITTED] T2935.006

[GRAPHIC] [TIFF OMITTED] T2935.007

[GRAPHIC] [TIFF OMITTED] T2935.008

[GRAPHIC] [TIFF OMITTED] T2935.009

[GRAPHIC] [TIFF OMITTED] T2935.010

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 1, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    General Townsend. DOD has established a set of counterinsurgency 
training and operational standards to focus U.S. military units on 
specific requirements prior to and during their deployments to 
Afghanistan. Some of the skills are not Afghanistan-specific, such as 
``understand the operational environment'' while others apply directly 
to current operations such as ``establish combat outpost.'' A specific 
requirement relative to enhancing force protection aboard U.S. forward 
operating bases is conducting a ``relief in place'' during unit 
turnovers. This task involves incoming/outgoing commanders reviewing 
all current security conditions and sharing relevant force protection 
information including standard operating procedures. This information 
sharing also includes reviewing the status of local Afghans or Afghan 
National Security Force personnel living and/or working aboard the 
base. [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. JOHNSON
    General Townsend. Part of the standardization of APPF is 
implementation of a screening process similar to ANSF's eight-step 
process. The APPF vetting process includes the following:
    1) Valid Tazkera (Afghan identity card); 2) Two letters from elders 
and/or guarantors; 3) Personal information; 4) Criminal records check; 
5) Drug screening; 6) Medical screening; and 7) Biometric collection 
and enrollment in MoI's system for check against watch lists.
    The recruiting packet verification is the only step from ANSF's 
eight-step process not included in the APPF system. As we begin to 
transition to APPF in the next few months we will be able to assess the 
adequacy and effectiveness of this vetting process in relation to 
recruitment and employment of APPF. The vetting process has been 
effective and adequate to screen ANSF and we have already turned away 
several APPF recruits using the seven-step process. A most recent 
example occurred within an APPF training class where 21 recruits were 
screened out due to vetting issues and drug screening failures. [See 
page 24.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    Mr. Sedney. We do not specifically track this information. 
Afghanistan is a country in which the majority of the population is 
illiterate. More than 80 percent of all Afghan National Security Forces 
(ANSF) recruits are illiterate when they enter the service. Less than 
30 percent of the ANSF are literate to the international literacy 
standard. We have seen high-profile events such as the attack at Kabul 
International Airport conducted by educated Afghan officers. However, 
we have not directly studied whether literacy and education are 
correlated to the likelihood of attack. [See page 25.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 1, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. What department or agency was responsible for issuing 
the contract to Tundra and making sure it did what it promised to do in 
providing security for the base?
    Mr. Motsek. The Senior Contracting Official--Afghanistan (SCO-A) of 
the Joint Theater Support Contracting Command let the contract. The 
Defense Contract Management Agency--Afghanistan (DCMA-A) was 
responsible for the management of the contract (W91B4L-09-D-0024 and 
Task Order 00081C).
    Mr. McKeon. It looked like Tundra (a Canadian company) may have had 
an Afghan subsidiary involved in paying the Afghan personnel. If the 
local hires were not directly employed by the Canadian company (Tundra) 
that received the contract from the U.S. Government (and paid for by 
our tax dollars), is the private contractor still required to be 
responsible for control and compliance with our rules of the security 
personnel on the ground (including the Afghan employee of Tundra that 
attacked our son and his fellow soldiers)?
    Mr. Motsek. Contract W91B4L-09-D-0024 was awarded to Tundra 
Security Consultants Afghanistan (Tundra SCA), which is the Afghan-
owned subsidiary of Tundra Strategies of Canada. Although Afghan-owned 
and operating with a mostly Afghan staff, Tundra SCA operates with a 
Canadian management team. The contract was not awarded to Tundra 
Strategies of Canada, and Tundra SCA's personnel were not hired by that 
company. Under the terms of the contract, Tundra SCA was responsible 
for control of security personnel on the ground and compliance with our 
rules and regulations, pursuant to the terms of its contract.
    Mr. McKeon. Are these private security contractors like Tundra 
providing security at the base also allowed to participate in combat 
operations with our troops?
    Mr. Motsek. No. Private Security Company (PSC) contractors are 
restricted from performing combat functions per Department of Defense 
Instructions (DODI) 1100.22, 3020.50, and 3020.41, the Defense Federal 
Acquisition Regulations (DFARs), and the terms of their contracts. Use 
of force by PSC personnel is limited to self-defense, the defense of 
others, and the preservation of designated critical or inherently 
dangerous property against unlawful attack.
    Mr. McKeon. What actions were taken against the private security 
contractor for any failure to follow required procedures for vetting 
and supervision of their personnel?
    Mr. Motsek. Tundra SCA's official records did not indicate that the 
perpetrator of the Forward Operating Base (FOB) Frontenac attack was 
previously terminated because he posed a threat, as the allegation was 
investigated and determined to be unsubstantiated. He had been 
biometrically enrolled during his previous term of employment with 
Tundra SCA, but had not yet been re-enrolled at the time of the 
incident, although a request for re-enrollment had been submitted.
    Based on the results of the review, DCMA-A issued a Level III 
Corrective Action Request (CAR) to Tundra SCA dated May 7, 2011. Tundra 
SCA responded to the CAR with a Corrective Action Plan (CAP) on June 
15, 2011. After the review of all required documentation, DCMA-A fully 
accepted Tundra SCA's CAP and closed the CAR on July 6, 2011. However, 
the contract continues to be audited by DCMA-A through the support of 
the Contracting Officer Representatives and the DCMA-A Quality 
Assurance Representatives. Additionally, DCMA-A has documented Tundra 
SCA's unsatisfactory performance at FOB Frontenac in the Joint 
Contingency Contracting System for SCO-A's use in evaluating contractor 
performance.
    Mr. McKeon. What vetting was the private contractor (Tundra) 
required to perform before entrusting its guard with a weapon around 
our troops?
    Mr. Motsek. At the time of the FOB Frontenac incident, Tundra SCA 
was contracted to provide security at nine (9) installations in 
Afghanistan. Pursuant to the terms of its contract, Tundra SCA was 
required to submit a plan detailing its processes for hiring employees, 
performing background checks, and providing the results of the 
background check to the contracting officer for review and acceptance.
    The plan submitted by Tundra SCA required agency checks at both the 
local and national level. Local agency checks included identity 
verification via valid Tazkera (the Afghan identity card), verification 
of work history, address confirmation, fingerprinting, and a local 
police check to receive a clearance certificate for each employee. 
National agency checks required the contractors to submit a completed 
employee information package to the Afghanistan Ministry of Interior 
(MoI) and the Afghanistan National Directorate of Security (NDS), which 
investigates major crime and potential connections to terrorist 
organizations. Pending a successfully cleared background check, the 
Afghanistan Ministry of Foreign Affairs would then issue a certificate 
of successful vetting and acceptance.
    Additionally, Tundra SCA was required to support the Government of 
the Islamic Republic of Afghanistan (GIRoA) portion of the vetting 
process by submitting requests for biometric enrollment, ensuring the 
availability of language interpretation services during the screening 
and enrollment processes, and requesting Global Unique Identification 
numbers from GIRoA enrollers to verify each individual enrollment. The 
action with GIRoA was accomplished; the re-enrollment with the U.S. 
Government biometric database was pending. The individual was still in 
the U.S. database due to his previous employment.
    Prior to submission of an arming request, all local nationals and 
third-country nationals must submit to full biometric enrollment. 
Additional routine biometric screening then continues in accordance 
with local installation policies and procedures. Like all contractors, 
Tundra SCA is required to notify the contracting officer's 
representative, the local installation Force Protection agency, and the 
theater arming approval authority immediately if individuals are 
revealed as potential security risks during biometric processing.
    Tundra SCA was also required to develop a process by which employee 
termination would be communicated to the contracting officer and local 
installation Force Protection agencies. The aim is to prevent 
unauthorized access, and to communicate potential security risks 
concerning individuals terminated for cause to NDS for biometric watch 
list consideration. To prevent the rehiring of high-risk personnel, all 
contractors were additionally required to develop a plan of action to 
address the tracking and communication of employee dismissals to all 
sites managed by the contractor. Finally, according to the terms of its 
contract, Tundra SCA was required to maintain records on the screening 
status of its employees for six months following termination.

    Mr. McKeon. What can and needs to be done to insure that our troops 
are only guarded by fellow U.S. troops while on base in areas that we 
are conducting military actions such as Afghanistan?
    Mr. Sedney. The contractors' ability to provide specific security 
functions frees up U.S. Forces to conduct more combat-focused missions. 
Contractors perform their missions well and provide essential support 
for the conduct of operations in Afghanistan as they do worldwide. 
Without contractors (20,000 presently performing the function today), 
we would have to divert forces from essential combat tasks to perform 
these security functions. The use of civilians to guard U.S. bases in 
Afghanistan, based upon threat analysis, is consistent with our use of 
them elsewhere in the world and in previous conflicts.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL

    Mr. Kissell. Are there any other related, recorded problems on this 
issue than those that led to a death?
    General Dahl. The investigation conducted by Regional Command-South 
identified a number of shortcomings in the policies governing the 
hiring and management of Afghan private security contractors and the 
execution of those policies. These problems are discussed in some 
detail in the investigation report, a copy of which was provided to the 
Committee before the hearing. Although the investigation found that 
those specific issues did not lead directly to the deaths of the 
Soldiers at FOB Frontenac, the command took immediate steps to correct 
the problems to provide an additional measure of security for our 
Soldiers.
    Mr. Kissell. Are there other companies with similar security 
responsibilities as Tundra Strategies, which are setting good examples, 
such that U.S. forces would want to see emulated? Furthermore, how 
closely are U.S. forces monitoring these companies to ensure that there 
aren't other up-and-coming potential assailants?
    General Dahl. I defer to the Joint Staff and OSD regarding current 
policies and the performance of private security contractors (PSCs) in 
theater. The policies in place at the time of the FOB Frontenac attack 
and the subsequent improvements implemented within Regional Command-
South applied to all private security contractors, to include to 
requirement to screen PSC employees and to mitigate the risks 
associated with insider threats.
    Mr. Kissell. Once Afghan nationals are hired to provide security to 
U.S. Forces, how much access are they allowed throughout the forward 
operating base or military facility? Similarly, why aren't there 10% 
random daily biometric checks for Afghan nationals accessing a U.S. 
facility with the purpose of providing security?
    General Dahl. I defer to the Joint Staff and OSD on current theater 
policies regarding access by private security contractors (PSCs). 
During the time I was deployed to Regional Command-South, access was 
based on contact performance requirements, with oversight provided by 
the local commander and contracting officer representative. Likewise, 
specific force protection measures were applied by local commanders 
consistent with theater policies and their own risk assessments. As 
noted in the materials provided to the Committee before the hearing, 
the Regional Command-South commander directed that all subordinate Task 
Forces conduct random, 50 percent monthly screening/verification of all 
PSC employees to ensure they were not on the Afghan Watch List.

    Mr. Kissell. Are there any other related, recorded problems on this 
issue than those that led to a death?
    General Townsend. Since May 2007, ISAF elements identified 42 ANSF 
and 3 PSC related insider incidents. The cause of each event varies. We 
utilize the lessons learned in each attack to identify potential 
counter-measures and reduce the primary causes of insider attacks.
    Mr. Kissell. Are there other companies with similar security 
responsibilities as Tundra Strategies, which are setting good examples, 
such that U.S. forces would want to see emulated? Furthermore, how 
closely are U.S. forces monitoring these companies to ensure that there 
aren't other up-and-coming potential assailants?
    General Townsend. USFOR-A FRAGO 11-128 sets specific standards for 
all of the private security companies supporting U.S. installations. As 
with all contracts, contractor's performance is monitored against 
stated contract requirements and standards. Terms and conditions of the 
contract provide a means to ensure that the contractor is effectively 
performing, e.g., penalties, show cause (notice of non-performance), 
and termination. The IJC Armed Contractor Oversight Directorate (ACOD) 
monitors all of the PSCs in order to enforce compliance with US 
requirements. Each unit and installation commander is also responsible 
for monitoring and ensuring compliance by all PSC personnel in order to 
reduce the future insider threat.
    Mr. Kissell. Once Afghan nationals are hired to provide security to 
U.S. Forces, how much access are they allowed throughout the forward 
operating base or military facility? Similarly, why aren't there 10% 
random daily biometric checks for Afghan nationals accessing a U.S. 
facility with the purpose of providing security?
    General Townsend. The level of access provided to U.S. Military 
facilities is based on the specific contract. USFOR-A FRAGOs 11-128 and 
11-086 set specific requirements for units using contract security 
personnel. Contractors are required to wear access badges issued via 
biometric registration in order to ensure that they operate in areas 
authorized by their contract.
    USFOR-A FRAGO 11-086 now directs commanders to conduct weekly 
biometric screening of local national contractors. Commanders may use 
their discretion in determining how to execute the required weekly 
screening. The use of a 10% random check would be up to the discretion 
of the requiring activity commander.

    Mr. Kissell. Are there any other related, recorded problems on this 
issue than those that led to a death?
    Mr. Motsek. Since May 2007, ISAF elements identified 42 ANSF and 3 
PSC related insider incidents. The cause of each event varies. We 
utilize the lessons learned in each attack to identify potential 
counter-measures and reduce the primary causes of insider attacks.
    Mr. Kissell. Are there other companies with similar security 
responsibilities as Tundra Strategies, which are setting good examples, 
such that U.S. forces would want to see emulated? Furthermore, how 
closely are U.S. forces monitoring these companies to ensure that there 
aren't other up-and-coming potential assailants?
    Mr. Motsek. USFOR-A FRAGO 11-128 sets specific standards for all of 
the private security companies supporting U.S. installations. As with 
all contracts, contractor's performance is monitored against stated 
contract requirements and standards. Terms and conditions of the 
contract provide a means to ensure that the contractor is effectively 
performing, e.g., penalties, show cause (notice of non-performance), 
and termination. The IJC Armed Contractor Oversight Directorate (ACOD) 
monitors all of the PSCs in order to enforce compliance with US 
requirements. Each unit and installation commander is also responsible 
for monitoring and ensuring compliance by all PSC personnel in order to 
reduce the future insider threat.
    Mr. Kissell. Once Afghan nationals are hired to provide security to 
U.S. Forces, how much access are they allowed throughout the forward 
operating base or military facility? Similarly, why aren't there 10% 
random daily biometric checks for Afghan nationals accessing a U.S. 
facility with the purpose of providing security?
    Mr. Motsek. The level of access provided to U.S. Military 
facilities is based on the specific contract. USFOR-A FRAGOs 11-128 and 
11-086 set specific requirements for units using contract security 
personnel. Contractors are required to wear access badges issued via 
biometric registration in order to ensure that they operate in areas 
authorized by their contract.
    USFOR-A FRAGO 11-086 now directs commanders to conduct weekly 
biometric screening of local national contractors. Commanders may use 
their discretion in determining how to execute the required weekly 
screening. The use of a 10 percent random check would be up to the 
discretion of the requiring activity commander.

    Mr. Kissell. Are there any other related, recorded problems on this 
issue than those that led to a death?
    Mr. Sedney. Since May 2007, International Security Assistance Force 
(ISAF) elements have identified 42 Afghan National Security Forces 
(ANSF) and 3 Private Security Contractor (PSC)-related insider 
incidents. The facts of each event are different. We utilize the 
lessons learned from such incidents to identify potential counter-
measures and reduce the primary causes of insider attacks.
    Mr. Kissell. Are there other companies with similar security 
responsibilities as Tundra Strategies, which are setting good examples, 
such that U.S. forces would want to see emulated? Furthermore, how 
closely are U.S. forces monitoring these companies to ensure that there 
aren't other up-and-coming potential assailants?
    Mr. Sedney. USFOR-A Fragmentary Order 11-128 sets specific 
standards for all of the private security contractor (PSCs) supporting 
U.S. installations. As with all DoD contracts, the contractor's 
performance is monitored against stated contract requirements and 
standards. The terms and conditions of the contract provide a means to 
ensure that the contractor is effectively performing, e.g., penalties, 
show cause (notice of non-performance), and termination. The U.S. 
Forces-Afghanistan Armed Contractor Oversight Directorate (ACOD) 
monitors all U.S. PSCs in order to enforce compliance with U.S. 
requirements. Each unit and installation commander is also responsible 
for monitoring and ensuring compliance by all PSC personnel in order to 
reduce the future insider threat.
    Mr. Kissell. Once Afghan nationals are hired to provide security to 
U.S. Forces, how much access are they allowed throughout the forward 
operating base or military facility? Similarly, why aren't there 10% 
random daily biometric checks for Afghan nationals accessing a U.S. 
facility with the purpose of providing security?
    Mr. Sedney. The level of access provided to U.S. military 
facilities is based on the specific contract. USFOR-A Fragmentary 
Orders (FRAGOs) 11-128 and 11-086 set specific requirements for units 
using contract security personnel. Contractors are required to wear 
access badges issued via biometric registration in order to ensure that 
they operate in areas authorized by their contract.
    USFOR-A FRAGO 11-086 now directs commanders to conduct weekly 
biometric screening of local national contractors. Commanders may use 
their discretion in determining how to conduct the required weekly 
screening. The use of a 10 percent random check would be up to the 
discretion of the requiring activity commander.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER

    Mr. Ruppersberger. A background investigation for U.S. personnel 
can range from a simple criminal records check to a more thorough 
review, like what is done for many in the Intelligence Community. When 
hiring Afghan Nationals to protect the personal security of U.S. forces 
and/or assets, it makes sense that background investigations should be 
done for them as well. However, it does not seem possible to do the 
same level of background investigation in Afghanistan as those done in 
the United States. Are some types of background investigation applied 
to Afghan Nationals, and how do you plan on incorporating those results 
into your employment decision?
    General Townsend. Agency checks at both local and national level 
are required. Local agency checks include identity verification via 
valid Tazkera (the Afghan identity card), verification of work history, 
address confirmation, fingerprinting, and local police check to receive 
a clearance certificate for each employee. National agency checks 
require contractors to submit a completed employee information package 
to the Afghanistan Ministry of Interior (MoI) and the Afghanistan 
National Directorate of Security (NDS), which investigates major crime 
and potential connections to terrorist organizations. Pending a 
successfully cleared background check, the Afghanistan Ministry of 
Foreign Affairs would then issue a certificate of successful vetting 
and acceptance.
    Additionally, contractors are required to support the Afghan 
Government (GIRoA) portion of the vetting process by submitting 
requests for biometric enrollment, ensuring availability of language 
interpretation services during the screening and enrollment processes, 
and requesting Global Unique Identification number from GIRoA enrollers 
to verify each individual enrollment.
    Prior to submission of an arming request, all local nationals and 
third-country nationals must submit to full biometric enrollment. 
Additional routine biometric screening then continues in accordance 
with local installation policies and procedures. All contractors are 
required to immediately notify the contracting officer's 
representative, the local installation Force Protection agency, and the 
theater arming approval authority of individuals who are revealed as 
potential security risks during biometric processing.
    Contractors are also required to develop a process by which 
employee termination would be communicated to the contracting officer 
and local installation Force Protection agencies. While the aim is to 
prevent unauthorized access, the process also communicates potential 
security risks to NDS for biometric watch list consideration. To 
prevent the rehiring of high-risk personnel, all contractors are 
additionally required to develop a plan of action to address the 
tracking and communication of employee dismissals to all sites managed 
by the contractor. Finally, according to the terms of its contract, 
contractors are required to maintain records on the screening status of 
its employees for six months following termination.

    Mr. Ruppersberger. A background investigation for U.S. personnel 
can range from a simple criminal records check to a more thorough 
review, like what is done for many in the Intelligence Community. When 
hiring Afghan Nationals to protect the personal security of U.S. forces 
and/or assets, it makes sense that background investigations should be 
done for them as well. However, it does not seem possible to do the 
same level of background investigation in Afghanistan as those done in 
the United States. Are some types of background investigation applied 
to Afghan Nationals, and how do you plan on incorporating those results 
into your employment decision?
    Mr. Motsek. Agency checks at both local and national level are 
required. Local agency checks include identity verification via valid 
Tazkera (the Afghan identity card), verification of work history, 
address confirmation, fingerprinting, and local police check to receive 
a clearance certificate for each employee. National agency checks 
require contractors to submit a completed employee information package 
to the Afghanistan Ministry of Interior (MoI) and the Afghanistan 
National Directorate of Security (NDS), which investigates major crime 
and potential connections to terrorist organizations. Pending a 
successfully cleared background check, the Afghanistan Ministry of 
Foreign Affairs would then issue a certificate of successful vetting 
and acceptance.
    Additionally, contractors are required to support the Afghan 
Government (GIRoA) portion of the vetting process by submitting 
requests for biometric enrollment, ensuring availability of language 
interpretation services during the screening and enrollment processes, 
and requesting Global Unique Identification number from GIRoA enrollers 
to verify each individual enrollment.
    Prior to submission of an arming request, all local nationals and 
third-country nationals must submit to full biometric enrollment. 
Additional routine biometric screening then continues in accordance 
with local installation policies and procedures. All contractors are 
required to immediately notify the contracting officer's 
representative, the local installation Force Protection agency, and the 
theater arming approval authority of individuals who are revealed as 
potential security risks during biometric processing.
    Contractors are also required to develop a process by which 
employee termination would be communicated to the contracting officer 
and local installation Force Protection agencies. While the aim is to 
prevent unauthorized access, the process also communicates potential 
security risks to NDS for biometric watch list consideration. To 
prevent the rehiring of high-risk personnel, all contractors are 
additionally required to develop a plan of action to address the 
tracking and communication of employee dismissals to all sites managed 
by the contractor. Finally, according to the terms of its contract, 
contractors are required to maintain records on the screening status of 
its employees for six months following termination.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
